Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


  THE ETHIOPIAN PUBLIC HEALTH
ASSOCIATION GENERALLY MANAGED
THE PRESIDENT’S EMERGENCY PLAN
 FOR AIDS RELIEF FUNDS BUT DID
NOT ALWAYS MEET PROGRAM GOALS
   IN ACCORDANCE WITH AWARD
         REQUIREMENTS
  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General
                                                   for Audit Services

                                                      October 2014
                                                      A-04-13-04016
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8M of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 The Ethiopian Public Health Association generally managed the President’s Emergency
 Plan for AIDS Relief funds but did not always meet program goals in accordance with
 award requirements.

WHY WE DID THIS REVIEW

The Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the Act) authorized
$48 billion in funding for the President’s Emergency Plan for AIDS Relief (PEPFAR) program
for the 5-year period beginning October 1, 2008, to assist foreign countries in combating
HIV/AIDS, tuberculosis, and malaria.

The Act requires the Department of Health and Human Services (HHS), Office of Inspector
General (OIG), among others, to provide oversight of the programs implemented under the Act,
including PEPFAR. To meet this requirement, HHS OIG has conducted a series of audits of
organizations receiving PEPFAR funds from HHS, Centers for Disease Control and Prevention
(CDC). We selected the Ethiopian Public Health Association (EPHA) for review.

The objective of our audit was to determine whether EPHA managed PEPFAR funds and met
program goals in accordance with the award requirements.

BACKGROUND

Through a 5-year cooperative agreement (grant number 5U2GPS001229), CDC awarded
PEPFAR funds totaling $1,727,725 to EPHA for the budget period September 30, 2011, through
September 29, 2012.

Under the cooperative agreement, EPHA’s overall goal is to improve public-health practice and
service delivery in the area of HIV/AIDS prevention and control in the Federal Democratic
Republic of Ethiopia through the conduct of public-health evaluations and operations research
and by developing capacity for designing and implementing evidence-based policies and
interventions.

WHAT WE FOUND

EPHA generally managed PEPFAR funds but did not always meet program goals in accordance
with award requirements. Our financial management review showed that the 48 transactions
tested, totaling $1,231,702, were allowable. However, although allowable, 8 of the 48
transactions, totaling $22,751, were recorded to incorrect expense accounts in the general ledger.

Additionally, EPHA:

    •   used $68,194 of PEPFAR funds to pay potentially unallowable value-added taxes (VAT)
        on purchases and

Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                        i
    •   did not submit its annual financial audit report to the National External Audit Review
        Center in accordance with the award requirements.

Our program management review showed that, of the 121 goals from its cooperative agreement,
EPHA reported accomplishments for 82 in its annual progress report. However, it did not report
accomplishments for the remaining 39 goals. Our judgmental sample review of 32 reported
accomplishments showed that 24 were fully supported by documentation, 5 were partially
supported, and 3 were not supported. Also, EPHA submitted its annual progress report to CDC 6
months late.

These errors occurred because EPHA did not have adequate policies and procedures.

WHAT WE RECOMMEND

We recommend that EPHA:

    •   work with CDC to resolve whether VAT was an allowable expenditure under the
        cooperative agreement and to seek reimbursement from the Ethiopian Government for
        the $68,194 of VAT paid and

    •   develop and implement policies and procedures for:

            o recording expenditures to the correct expense accounts in the general ledger,

            o maintaining adequate supporting documentation for accomplishments included in
              the progress report,

            o preparing an annual progress report that includes all goals related to the
              cooperative agreement,

            o submitting the progress report in a timely manner, and

            o submitting its annual financial audit report in a timely manner to the applicable
              United States agency.

ETHIOPIAN PUBLIC HEALTH ASSOCIATION COMMENTS AND OUR RESPONSE

In comments on our draft report, EPHA officials concurred with our recommendations.
However, they asked us to reconsider our first recommendation to refund $3,942 on the basis of
additional documentation that they provided. EPHA officials also described corrective actions,
such as developing policies and written procedures, they had taken or planned to take to address
the recommendations.

We reviewed the explanations in EPHA’s comments and the additional documentation provided
with the comments. On the basis of the additional information, we removed our
recommendations to refund to CDC $3,942 in unallowable expenditures and to develop and

Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                      ii
implement policies and procedures ensuring that only related expenditures are charged to the
cooperative agreement.




Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                  iii
                                                     TABLE OF CONTENTS

INTRODUCTION ........................................................................................................................ 1

           Why We Did This Review ................................................................................................ 1

           Objective ........................................................................................................................... 1

           Background ....................................................................................................................... 1
                 Centers for Disease Control and Prevention ......................................................... 1
                 Application of Federal Regulations ...................................................................... 2
                 Ethiopian Public Health Association .................................................................... 2

           How We Conducted This Review..................................................................................... 3

FINDINGS .................................................................................................................................... 3

           Financial Management ...................................................................................................... 4
                  Some Financial Transactions Were Incorrectly Recorded.................................... 4
                  Expenditures for Value-Added Taxes Are Potentially Unallowable .................... 4

           Program Management ....................................................................................................... 4
                 Some Cooperative Agreement Goals Not Reported or Partially Supported ......... 4
                 Ethiopian Public Health Association Submitted Its Progress Report Late ........... 5

           Non-Federal Audit Reports ............................................................................................... 6

           Inadequate Policies and Procedures .................................................................................. 6

RECOMMENDATIONS .............................................................................................................. 7

ETHIOPIAN PUBLIC HEALTH ASSOCIATION COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE ................................................................ 7

           Ethiopian Public Health Association Comments .............................................................. 7

           Office of Inspector General Response .............................................................................. 7

APPENDIXES

           A: Related Office of Inspector General Reports .............................................................. 9

           B: Audit Scope and Methodology.................................................................................. 11

           C: Federal Requirements ............................................................................................... 13

Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                                                                        iv
        D: Ethiopian Public Health Association Comments ...................................................... 15




Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                                       v
                                                 INTRODUCTION

WHY WE DID THIS REVIEW

The Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the Act) authorized
$48 billion in funding for the President’s Emergency Plan for AIDS Relief (PEPFAR) program
for the 5-year period beginning October 1, 2008, to assist foreign countries in combating
HIV/AIDS, tuberculosis, and malaria.

The Act requires the Department of Health and Human Services (HHS), Office of Inspector
General (OIG), among others, to provide oversight of the programs implemented under the Act,
including PEPFAR. To meet this requirement, HHS OIG has conducted a series of audits 1 of
organizations receiving PEPFAR funds from HHS, Centers for Disease Control and Prevention
(CDC).

We selected the Ethiopian Public Health Association (EPHA) for review.

OBJECTIVE

Our objective was to determine whether EPHA managed PEPFAR funds and met program goals
in accordance with the award requirements.

BACKGROUND

Centers for Disease Control and Prevention

The Act gives CDC a leadership role in several key areas of research and evaluation in
implementing HIV/AIDS programs, including program monitoring, impact evaluation, and
operations research. Through its Global HIV/AIDS Program, CDC implemented PEPFAR,
working with ministries of health and other public health partners to combat HIV/AIDS by
strengthening health systems and building sustainable HIV/AIDS programs in more than 75
countries in Africa, Asia, Central and South America, and the Caribbean.

For fiscal year (FY) 2011, CDC obligated 2 PEPFAR funds totaling $1.3 billion. CDC awarded
these PEPFAR funds through cooperative agreements, which it uses in lieu of grants when it
anticipates the Federal Government’s substantial involvement with recipients in accomplishing




1
    Appendix A contains a list of related OIG reports.
2
 “Obligated” funds are amounts for which the recipient has made binding commitments for orders placed for
property and services, contracts and subawards, and similar transactions during a funding period that will require
payment during the same or a future period per HHS’s Grants Policy Directives 1.02. HHS internal departmental
grants guidance is in the process of being updated in a new Grants Policy Administration Manual.



Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                                        1
the objectives of the agreements. 3 In response to a Funding Opportunity Announcement (FOA), 4
CDC awarded EPHA grant number 5U2GPS001229 through a cooperative agreement for the
project period September 30, 2008, through September 29, 2013.

Application of Federal Regulations

The grant administration rules in 45 CFR part 92 apply to State, local, and tribal governments.
The grant administration rules in 45 CFR part 74 apply to nonprofit organizations, hospitals,
institutions of higher education, and commercial organizations. The HHS Grants Policy
Statement (GPS), which provides general terms and conditions and HHS policies for grantees
and others interested in the administration of HHS grants, specifies that foreign grantees must
comply with the requirements of 45 CFR parts 74 or 92, as applicable to the type of foreign
organization (GPS section II-113). Thus, the rules in 45 CFR part 74 apply to a nonprofit
organization.

Ethiopian Public Health Association

Under the cooperative agreement, EPHA’s overall goal is to improve public-health practice and
service delivery in the area of HIV/AIDS prevention and control in the Federal Democratic
Republic of Ethiopia through the conduct of public-health evaluations and operations research
and by developing capacity for designing and implementing evidence-based policies and
interventions by:

       •   building local capacity in Ethiopia for “evidence-based decision making,” including the
           generation, dissemination, and utilization of related strategic information related to
           HIV/AIDS, sexually transmitted diseases, and tuberculosis;

       •   expanding and strengthening HIV/AIDS prevention, care, and treatment in Ethiopia to
           the most at-risk populations, including men who have sex with men and men who are
           abusers of alcohol and illicit substances;

       •   extending support for public health evaluations related to Ethiopian HIV/AIDS
           prevention, care, and treatment programs;

       •   ensuring safe medical practice, in general, and the prevention and control of the
           transmission of HIV and other diseases in health care settings; and

       •   expanding HIV/AIDS prevention, care, and treatment in private health institutions in
           Ethiopia.


3
    The regulations that apply to Federal grants also apply to cooperative agreements.
4
 FOA Number CDC-RFA-PS08-832 is entitled Improving Public Health Practices and Service Delivery in the
Federal Democratic Republic of Ethiopia with a Focus on HIV, Sexually Transmitted Infections, and Tuberculosis
Under PEPFAR.



Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                                    2
HOW WE CONDUCTED THIS REVIEW

Our audit covered the budget period from September 30, 2011, through September 29, 2012.
This budget period was the fourth year of a 5-year cooperative agreement. During the budget
period under review, CDC awarded EPHA $1,727,725.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our scope and methodology, and Appendix C contains
Federal requirements.

                                                   FINDINGS

EPHA generally managed PEPFAR funds but did not always meet program goals in accordance
with award requirements. Our financial management review showed that the 48 transactions
tested, totaling $1,231,702, were allowable. However, although allowable, 8 of the 48
transactions, totaling $22,751, were recorded to incorrect expense accounts in the general ledger.

Additionally, EPHA:

    •    used $68,194 of PEPFAR funds to pay potentially unallowable value-added taxes (VAT)
         on purchases and

    •    did not submit its annual financial audit report to the National External Audit Review
         Center (NEAR) in accordance with the award requirements.

Our program management review showed that, of the 121 goals from its cooperative agreement,
EPHA reported accomplishments for 82 in its annual progress report. 5 However, it did not
report accomplishments for the remaining 39 goals. Our judgmental sample review of 32
reported accomplishments showed that 24 were fully supported by documentation, 5 were
partially supported, and 3 were not supported. Also, EPHA submitted its annual progress report
to CDC 6 months late.

These errors occurred because EPHA did not have adequate policies and procedures.




5
 Recipients are required to submit an annual progress report that should contain, for each grant or cooperative
agreement, information on the comparison of actual accomplishments to objectives established for the period.



Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                                     3
FINANCIAL MANAGEMENT

Some Financial Transactions Were Incorrectly Recorded

Accounting records, including cost accounting records, must be supported by source
documentation (45 CFR § 74.21(b)(7)).

Our financial management review showed that the 48 transactions tested, totaling $1,231,702,
were allowable. However, EPHA recorded 8 of the 48 transactions, totaling $22,751, to
incorrect expense accounts in the general ledger.

By not recording transactions properly, EPHA did not ensure that it spent the funds in
accordance with award requirements.

Expenditures for Value-Added Taxes Are Potentially Unallowable

The GPS (section II-114) states that certain costs, including VAT, are unallowable under both
foreign grants and domestic grants with foreign components. Also, bilateral agreements with
foreign governments may stipulate an exemption from paying VAT for those contractors and
recipients that are funded by the United States and providing foreign aid. 6

During the audit period, EPHA used $68,194 of PEPFAR funds to pay VAT, a potentially
unallowable cost for this cooperative agreement. EPHA is not a business organization according
to the Ethiopian Government, and therefore, EPHA does not have a VAT identification number.
EPHA maintains a record of VAT transactions, which it provides to CDC Ethiopia. CDC
Ethiopia submits the VAT documentation for reimbursement on behalf of EPHA.

As of August 2013, neither EPHA nor CDC Ethiopia had received any VAT reimbursement for
EPHA from the Ethiopian Government.

PROGRAM MANAGEMENT

Some Cooperative Agreement Goals Not Reported or Partially Supported

Progress reports must contain, among other things, “a comparison of actual accomplishments
with the goals … established for the period .... Whenever appropriate and the output of programs
or projects can be readily quantified, such quantitative data should be related to cost data for
computation of unit costs” (45 CFR § 74.51(d)(1)).

Recipients are required to retain financial records, supporting documents, statistical records, and
all “other records pertinent to an award” for 3 years from the submission date of the final
expenditure report for the funding period (45 CFR § 74.53(b)). Additionally, the FOA states that

6
 HHS is currently reexamining the applicability of the GPS provision; thus, we are not recommending a
disallowance. Instead, we recommend that EPHA work with CDC to resolve the issue.




Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                           4
EPHA should have measurable outcomes that are in alignment with the goals of PEPFAR
activities that have been implemented. 7
Our program management review showed that, of the 121 goals from its cooperative agreement,
EPHA reported accomplishments for 82 in its annual progress report. However, it did not report
accomplishments for the remaining 39 goals. Our sample review of 32 reported
accomplishments showed that 24 were fully supported by documentation, 5 were partially
supported, and 3 were not supported.

    •   The five partially supported accomplishments were for supervision of the Demographic
        and Health Surveillance System (DHSS) sites, DHSS event registration, training of peer
        leaders, peer education for youths, and social networking sessions. For example, EPHA
        provided attendance sheets for some of the peer leaders and youth reached through the
        peer education program but could not support all training that was part of the sampled
        accomplishment.

    •   The three unsupported accomplishments consisted of the following activities: purchases
        of equipment and furnishings, recruitment of research personnel, and training of
        personnel on the basics of HIV/AIDS surveillance. These unsupported accomplishments
        were related to the “Surveillance of HIV, Syphilis and Related Risk Behaviors among
        Men Who Have Sex with Men in Addis Ababa” program. EPHA indicated that the
        sensitivity of the topic caused delays in the implementation of activities. As a result,
        EPHA included year-4 accomplishments in the year-3 progress report because that was
        the year in which the activities were originally planned to occur.

EPHA lacked policies and procedures for reporting its annual progress. This lack of policies and
procedures led to missing or inadequate documentation to support the progress included in the
progress report. It also led to EPHA not reporting progress for some goals. As a result, CDC did
not have sufficient information to focus its monitoring efforts and assist EPHA in achieving the
goals of the cooperative agreement.

Ethiopian Public Health Association Submitted Its Progress Report Late

Recipients are required to submit annual progress reports 90 days after the grant year (45 CFR
§ 74.51(b)). The NOA provides the specific due dates for progress reports.

EPHA did not meet the 90-day Federal requirement for submitting its annual progress report.
EPHA’s grant year ended September 29, 2012. Therefore, the annual progress report was due to
CDC on December 29, 2012. However, EPHA submitted its progress report 6 months late on
July 2, 2013.




7
 Section IV of the NOA – Special Terms and Conditions – makes the requirement found in the FOA part of the
award by reference.



Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                                5
EPHA indicated the annual progress report was submitted late because of human error. The
EPHA director said that he thought he had submitted the progress report prior to the due date
when he had not done so. A grants management specialist from CDC Atlanta requested the
year-4 annual progress report on July 1, 2013. Without timely progress reports, CDC could not
determine whether the recipient met program goals in accordance with award requirements.

NON-FEDERAL AUDIT REPORTS

The GPS (section II-115) states that foreign recipients are subject to the same audit requirements
as commercial organizations specified in 45 CFR § 74.26(d). Pursuant to 45 CFR § 74.26(d)(1),
recipients that are commercial organizations are required to file one of the following types of
audits: a financial-related audit or an audit that meets the requirements of Office of Management
and Budget (OMB) Circular A-133.

OMB Circular A-133 states that audits must be completed annually and submitted for review
within the earlier of 30 days after receipt of the auditor’s report or 9 months after the end of the
organization’s FY, unless the agency agrees to a longer period of time (subpart B §__.220 and
subpart C §__.320). 8

Although EPHA had an A-133 audit covering the year ended September 30, 2012, it did not
submit its annual financial audit report to NEAR in accordance with the award requirements.
According to EPHA officials, EPHA forwarded the audit report to CDC because it mistakenly
thought that CDC forwarded the audit reports to NEAR on EPHA’s behalf. Because EPHA did
not submit the audit report, NEAR was unable to monitor recipient findings.

INADEQUATE POLICIES AND PROCEDURES

EPHA did not have adequate financial and programmatic policies and procedures to ensure that
it:

    •    recorded expenditures to the correct expense accounts in the general ledger,

    •    maintained adequate supporting documentation for accomplishments included in its
         progress report,

    •    submitted its progress report in a timely manner and included all goals related to the
         agreement, and

    •    submitted its annual financial audit report to NEAR as required by Federal regulations.




8
 If a foreign entity chooses to have a financial-related audit, the same due dates apply. (See Clarification of Audit
Requirements of For-Profit Organizations Including SBIR/STTR Grantees, issued by the HHS National Institutes of
Health, January 11, 2006).



Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                                       6
                                       RECOMMENDATIONS

We recommend that EPHA:

    •   work with CDC to resolve whether VAT was an allowable expenditure under the
        cooperative agreement and to seek reimbursement from the Ethiopian Government for
        the $68,194 of VAT paid and

    •   develop and implement policies and procedures for:

            o recording expenditures to the correct expense accounts in the general ledger,

            o maintaining adequate supporting documentation for accomplishments included in
              the progress report,

            o preparing an annual progress report that includes all goals related to the
              cooperative agreement,

            o submitting the progress report in a timely manner, and

            o submitting its annual financial audit report in a timely manner to the applicable
              United States agency.

ETHIOPIAN PUBLIC HEALTH ASSOCIATION COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

Ethiopian Public Health Association Comments

In comments on our draft report, EPHA officials concurred with our recommendations.
However, they asked us to reconsider our first recommendation to refund $3,942 on the basis of
additional documentation that they provided. EPHA officials also described corrective actions
they had taken or planned to take to address the recommendations, such as developing a
comprehensive Monitoring and Evaluation manual to ensure that they reported progress toward
all goals in accordance with the cooperative agreement. In addition, EPHA officials said that
they planned to revise their existing financial policies to properly document all expenditures and
to use a monitoring database to record, document, and track all program accomplishments
against goals.

EPHA’s comments are included as Appendix D. However, we did not include the attachments
because they were too voluminous.

Office of Inspector General Response

We reviewed the explanations in EPHA’s comments and the additional documentation provided
with the comments. On the basis of the additional information provided, we removed our
recommendations to refund to CDC $3,942 in unallowable expenditures and to develop and



Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                     7
implement policies and procedures ensuring that only related expenditures are charged to the
cooperative agreement.




Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                  8
        APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

    AUDITS OF THE PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF FUNDS

                        Report Title                                Report Number   Date Issued
   The Federal Democratic Republic of Ethiopia, Ministry            A-04-13-04015     9/2014
   of Health, Did Not Always Manage President’s
   Emergency Plan for AIDS Relief Funds or Meet
   Program Goals in Accordance With Award
   Requirements
   The Republic of Zambia, Ministry of Health, Did Not              A-04-13-04004     6/2014
   Always Manage the President’s Emergency Plan for
   AIDS Relief Funds or Meet Program Goals in
   Accordance With Award Requirements
   The University of Zambia School of Medicine Did Not              A-04-13-04010     4/2014
   Always Manage President’s Emergency Plan for AIDS
   Relief Funds or Meet Program Goals in Accordance
   With Award Requirements
   The University Teaching Hospital Generally Managed               A-04-13-04005     3/2014
   the President’s Emergency Plan for AIDS Relief Funds
   and Met Program Goals in Accordance With Award
   Requirements
   Aurum Institute for Health Research Did Not Always               A-05-12-00021     8/2013
   Manage President’s Emergency Plan for AIDS Relief
   Funds or Meet Program Goals in Accordance With
   Award Requirements
   The South African National Department of Health Did              A-05-12-00022     8/2013
   Not Always Manage President’s Emergency Plan for
   AIDS Relief Funds or Meet Program Goals in
   Accordance With Award Requirements
   The Southern African Catholic Bishops’ Conference                A-05-12-00023     7/2013
   AIDS Office Generally Managed President's
   Emergency Plan for AIDS Relief Funds and Met
   Program Goals in Accordance With Award
   Requirements
   The Vietnam Administration for HIV/AIDS Control Did              A-06-11-00057     6/2013
   Not Always Manage the President's Emergency Plan
   for AIDS Relief Funds or Meet Program Goals in
   Accordance With Award Requirements
   The Centers for Disease Control and Prevention’s                 A-04-12-04023     4/2013
   Vietnam Office Generally Monitored Recipients’ Use of
   the President’s Emergency Plan for AIDS Relief Funds
   Potentia Namibia Recruitment Consultancy Generally               A-06-11-00056     4/2013
   Managed the President’s Emergency Plan for AIDS
   Relief Funds and Met Program Goals in Accordance
   with Award Requirements


Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                     9
                         Report Title                               Report Number   Date Issued
   The Centers for Disease Control and Prevention’s                 A-04-12-04022     2/2013
   South Africa Office Did Not Always Properly Monitor
   Recipients’ Use of the President’s Emergency Plan for
   AIDS Relief Funds
   The Republic of Namibia, Ministry of Health and Social           A-04-12-04019     1/2013
   Services, Did Not Always Manage the President’s
   Emergency Plan for AIDS Relief Funds or Meet
   Program Goals in Accordance With Award
   Requirements
   The Centers for Disease Control and Prevention’s                 A-04-12-04020    11/2012
   Namibia Office Did Not Always Properly Monitor
   Recipients’ Use of the President’s Emergency Plan for
   AIDS Relief Funds
   Review of the Centers for Disease Control and                    A-04-10-04006     6/2011
   Prevention’s Oversight of the President’s Emergency
   Plan for AIDS Relief Funds for Fiscal Years 2007
   Through 2009




Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                     10
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered the budget period from September 30, 2011, through September 29, 2012.
This budget period was the fourth year of a 5-year cooperative agreement. During the budget
period under review, CDC awarded EPHA $1,727,725.

We limited our review of internal controls to those related to our objective. We conducted
fieldwork at EPHA’s offices in Addis Ababa, Ethiopia, in August 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed relevant Federal laws and regulations, HHS guidance, the FOA, the NOA, and
        EPHA’s policies and procedures;

    •   interviewed and conducted meetings with CDC Ethiopia officials to determine the extent
        of the technical assistance they provided to EPHA;

    •   interviewed and conducted meetings with EPHA officials to determine their policies and
        procedures related to financial accounting and reporting and program goals and
        accomplishments;

    •   reconciled EPHA’s FSR 9 to its accounting records for the budget period under review;

    •   selected and reviewed a judgmental sample of 48 financial transactions with expenditures
        totaling $1,231,702 from the grant award of $1,727,725 that included types of
        expenditures such as:

             o transactions that may include restricted funds,

             o transactions that may include unallowable costs,

             o transactions above or below the average transaction amount in an expenditure
               category, and

             o at least one item within each program area;

    •   compared the accomplishments described in EPHA’s annual progress report with the
        cooperative agreement’s goals;
9
 FSRs are due to the CDC Grants Management Office 90 days after the end of the budget period (45 CFR
§ 74.52(a)(1)(iv)). FSRs provide information to CDC on current expenditures and on carryover balances (if any). In
addition, these documents are considered in future funding decisions.



Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                                  11
    •   selected a judgmental sample of 32 accomplishments described in EPHA’s annual
        progress report and reviewed supporting documentation to determine whether EPHA met
        program goals; and

    •   reviewed EPHA’s annual financial audit report.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                 12
                          APPENDIX C: FEDERAL REQUIREMENTS

APPLICATION OF FEDERAL REGULATIONS

     The grant administration rules in 45 CFR part 92 apply to State, local, and tribal
     governments. The grant administration rules in 45 CFR part 74 apply to nonprofit
     organizations, hospitals, institutions of higher education, and commercial organizations.
     The GPS, which provides general terms and conditions and HHS policies for grantees and
     others interested in the administration of HHS grants, specifies that foreign grantees must
     comply with the requirements of 45 CFR parts 74 or 92, as applicable to the type of foreign
     organization (GPS section II-113). Thus, the rules in 45 CFR part 74 apply to a nonprofit
     organization.

45 CFR § 74.21(b)(7)

     Recipients’ financial management systems shall provide for the following: Accounting
     records, including cost accounting records, that are supported by source documentation.

45 CFR § 74.26(d)(1)

     Recipients and subrecipients that are commercial organizations (including for-profit
     hospitals) have two options regarding audits: A financial related audit or an audit that
     meets the requirements of OMB Circular A-133.

45 CFR § 74.51(b)

     Monitoring and Reporting Program Performance. The HHS awarding agency will
     prescribe the frequency with which the performance reports shall be submitted.
     Performance reports will not be required more frequently than quarterly or less
     frequently than annually. Annual reports shall be due 90 calendar days after the award
     year; quarterly or semi-annual reports shall be due 30 days after the reporting period.

45 CFR § 74.51(d)(1)

     Monitoring and Reporting Program Performance. Performance reports shall generally
     contain, for each award, brief information on each of the following: A comparison of
     actual accomplishments with the goals and objectives established for the period, the
     findings of the investigator, or both. Whenever appropriate and the output of programs
     or projects can be readily quantified, such quantitative data should be related to cost data
     for computation of unit costs.

45 CFR § 74.52(a)(1)(iv)

     Financial Reporting. Recipients shall submit the SF-269 and SF-269A (an original and
     two copies) no later than 30 days after the end of each specified reporting period for
     quarterly and semi-annual reports, and 90 calendar days for the annual and final reports.



Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                       13
     Extensions of reporting due dates may be approved by the HHS awarding agency upon
     request of the recipient.

45 CFR § 74.53(b)

     Retention and access requirements for records. Financial records, supporting
     documents, statistical records, and all other records pertinent to an award shall be
     retained for a period of three years from the date of submission of the final expenditure
     report or, for awards that are renewed quarterly or annually, from the date of the
     submission of the quarterly or annual financial report.

OMB Circular A-133

     Audits must be completed annually and submitted for review within the earlier of 30
     days after receipt of the auditor’s report or 9 months after the end of the organization’s
     FY, unless a longer period of time is agreed to by the agency (subpart B §__.220 and
     subpart C §__.320).

HHS, Grants Policy Statement, January 1, 2007, Audit Requirements, Section II-114

     Customs and import duties. These costs, which include consular fees, customs surtax,
     value-added taxes, and other related charges, are unallowable under foreign grants and
     domestic grants with foreign components.

HHS, GRANTS POLICY STATEMENT, JANUARY 1, 2007, AUDIT REQUIREMENTS,
SECTION II-115

    Audit. Foreign recipients are subject to the same audit requirements as commercial
    organizations specified in 45 CFR § 74.26(d).




Audit of the Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                     14
                APPENDIX D: ETIDOPIAN PUBLIC HEALTil ASSOCIATION C OMMENTS



         rn. rr-g- f         m.'l hmfiO:to D'IUOC                                    Ethiopian Public Health Association
                             (~~~~nOlJ)                                                                               (EPHA)

                                                                                                                 •-rc
                                                                                                                 Ref.No. 6"1>1­tNoc::;/ :!.53 !?/ H
                                                                                                                    +1 A~.<gust !?, ::u>:I.+
                                                                                                                     Date - - - - ­             - -­
               Gloria L. Jarmon
               Department of Hea lth and Hum an Services
               Deputy Inspector General for Audit Services
               Washington, DC 20201

               Dear Ms Jarmon,


              Re: Response to Draft Audit Rep·ort:-The Ethiopian Public Health Association (A-04-13-04016}. 

              W e provide responses to the OIG Draft Audit Report of both Financial and Programm atic issues 

               as follows:
               Responses to the OIG recommendations

          No     Recommendations                                     Responses            Reasons, act ions taken and planned
          1      Refund to CDC $3,942 in unallowable                 Concur               EPHA agrees to refund unallowable
                 expendi t ures                                                           expenditures. We respectfully request the
                                                                                          OIG to reconsider its decision of reimbursing
                                                                                          CDC $ 3,942 taking into account that this
                                                                                          action was done in accordance to the EPHA
                                                                                          personnel policy which approved use of UN
                                                                                          perdiem rate as flat rate and does not
                                                                                          require t raveler to settle advances issued
                                                                                          for meals and lodging. Traveler is required
                                                                                          to submit report and provide supportive
                                                                                          documents       for    ground     transport,
                                                                                          communication and other incidental costs .
                                                                                          Based on comments from CDC-E and OIG,
                                                                                          the manual is now revised. Annex 3,4 and 5

          2      Work with CDC to reso lve w het her VAT was         Concur               VAT refund request in the amount of
                 an allowable expenditure under the                                       $68,194 has been submitted to CDC-E for
                 cooperative agreement and t o seek                                       processing. EHPA has discussed the status
                 reimbursement from the Ethiopian Gov't for                               of refund. CDC-E has submitted partners
                 the $68,194 of VAT paid                                                  VAT ref und request to Ethiopian Revenue
                                                                                          and Customs Authority and is following up
                                                                                          t he reimbursement. Annex 8
          3      Develop and implement               policies and
                 procedures for;
                                                                                                                                       11 Pag e



                                                                                          ~

il~l1                        ?"il;J-        4.11il                    to.-"'1.1!-~        •                                               ?1-'l.il hiJI"I h.·}·!'-A-.1'
Tel: +251 114 16 60 41       P.O,Box 7117   Fax: +251 11 416 60 86    E-mail :infl}@et ~~                    e · e>~orwv.~,atO\
                                                                                                                  .                       Addis Ababa, Ethiopia
        ;~~uflf1~~!tthiopian Public Health Association PEPFAR Funds {A-                                      .~
                                                                                     '\
                                                                                              'bf&r,
                                                                                                   IV t •rJ;;,                                        ttnf
3.1   Recording expenditures to the correct           Concur   EPHA has been improving its financia l
      expense accounts in the general ledger,                  system and handling of transactions by
                                                               introducing different software (Sun System)
                                                               and arranging capacity building to its
                                                               personnel to improve efficiency. EPHA has
                                                               developed payment requisition form which
                                                               indicates the exact budget line and account
                                                               title. Annex 1,2 and 7
3.2   Maintaining       adequate     supporting       Concur   In addition to the existing financial policy,
      documentation for expenditures of Federal                EPHA is striving to develop additional
      funds and accomplishments included in the                manuals such as Grant management and
      progress report ,                                        documentation and plan to revise the
                                                               existing one in October 2014 to properly
                                                               document all expenditures systematically.
                                                               EPHA also plans to develop a monitoring
                                                               database in order to reco rd, document and
                                                               track all program accomplishments against
                                                               the goals in October 2014.
3.3   Ensuring that only related expenditures are     Concur   Efficient payment approval processes have
      charged to the cooperative agreement ,                   been implemented so far involving all
                                                               concerned bodies as per to their
                                                               designations and getting their approvals.
                                                               Annex 6
3.4   Preparing an annual progress report that        concur   EPHA       developed     a    comprehensive
      includes all goals related to the cooperative            Monitoring and Evaluation manual to
      agreement,                                               ensure all goals to be reported as per the
                                                               cooperative agreement. The manual is
                                                               attached in Annex 10, 11, & 15.
                                                               Furthermore, EPHA plans to develop a
                                                               database in order to record , document and
                                                               track all program goals.
3.5   Submitting the progress report in a timely      Concur   We have noticed the delay in reporting;
      manner and                                               EPHA has developed a tool for tracking all
                                                               reporting due dates (Annex 10) and is
                                                               committed to submit the progress report on
                                                               time guided by the policy and procedures
                                                               that indicated in the newly developed M and
                                                               E manual.
3.6   Submitting its annual financia l audit report   Concur   Annual Audit report has been submitted to
      in a timely manner to the US agency                      NEAR and feedback received. Annex 9


       A) RESPONSE TO THE FINANCIAL MANAGEMENT FINDINGS
  1. Financial Transactions Were Not Adequately Supported or Recorded
      1.1. Incorrectly Recorded Expenditures: Eight (8) transactions totaling $22,751 were allowable
        but the expenditures were recorded to incorrect expense account in the general ledger;



                                                                                             2j Page




                                                                                                           16
          We fully accept the comment given regarding transactions recorded in an incorrect expense
          account. The problem was identified during the audit and corrective action was taken
          immediately. Correcting entries were recorded to transfer the expenses into the correct
          expense accounts. To ensure that doesn't happen again, EPHA is using strong coding system
          to record transaction in the correct expense accounts. EPHA is using the attached payment
          requisition form to identify and indicate the correct title account during the approval
          process. Payment requisition form (annex 1) and the journal voucher (annex 2) in which we
          record the correcting entries attached herewith.
        1.2. 	 Unallowable Transactions: Three (3) transactions totaling $3,942 were unallowable
          because the expenditures were not supported by adequate documentation or related to the
          cooperative agreement.
1.2.1     Lack of documentation:
          • 	 The expenditures in question were for lodging and perdiem for two travelers. It doesn't
              include other incidental costs like ground transport and communications.
          • 	 The lodging and perdiem costs were as per UN guidelines at a flat rate as per EPHA's HR
              manual page 25 Article 5.4.9 (attach as Annex 3).
          • 	 During the audit period, EPHA's international travel policy d id not require the travelers to
              provide supporting documentation of actual expenses for meal and lodging. However,
              attached is the payment voucher in which the travelers acknowledged receipt of the
              lodging and perdiem received for the travel. (attach as annex 4)
          • 	 After this issue was highlighted during the OIG audit, EPHA revised its international travel
              policies. As per the revised policy, all travelers must provide supportive documentation
              for lodging expenses. Supporting documents are not required for meals. The revised
              policy is attached as annex 5.
        1.2.2 Not allowable $95:
          Response $95:- The Ethiopian public health association publishes and disseminates strategic
          information for members and partner organization. The purchase of leather coat (uniform)
          amounting $95 was for EPHA motorist (drive a motorbike) who is responsible to deliver
          publications and other information kits published by PEPFAR fund to different partners,
          members and institutions as well as post office to be sent to different regions. As per our HR
          manual the motorist is entitled for safety items such as helmet and annual closing allowance
          including shoes. We purchased the Leather Coat to fulfill this requirement. As an employer,
          EPHA should safeguard its employees while they are working. We provide him as a protective
          gear while he is performing the aforementioned activities. Part of HR manual which shows
          closing allowance attached as annex 6


        1.2.3 Improper expensed and unrecorded 	items for the 131h World Congress held in Addis
          Ababa , Ethiopia, EPHA


          appropriate expense accounts by                                         Correcting entry was

                                                                                               3I Page

                                                                                                      tr1'
                                                                                                              17
    recorded for wrong underpayment of the tax and fuel advance amounting of $879 and $57
    respectively. However, the vertical blinds (Curtain) and vacancy announcement expenses
    amounting $253 was paid from the allocated and approved budget of PAPFAR EPHA-CDC
    project. We utilized the vertical blind for the r oom assigned for the project in our office and
    the vacancy announcement expenses was used for the recruitment of the office employees.
    Since the budget was allocated and approved by PGO we utili zed the indicated amount for
    the above activities. An over payment recorded of $3 for mobile card was amended and
    recorded correctly. Correcting entries to recognize the above transactions attached her with .
    See annex 7
 2. Expenditures for Value- Added Tax Are Potentially Unallowable
  2.1 EPHA used $68,194 of PEPFAR funds to pay potentially unallowable value added taxes
      (VAT) on purchases
     Response   $ 68,194    of VAT:    As per the VAT refund process, EPHA has submitted all
     necessary documents to CDC Ethiopia in order to request VAT refund from the concerned
     government body. CDC-Ethiopia is working with the Government of Ethiopia to expedite pending
     reimbursements. See annex 8


   2.2 EPHA did not submit its annual financial audit report to the National External Audit
     Review Center (NEAR) in accordance with the award requirements
     Response: Though we recognized it is delayed EPHA has submitted the audit report t o
     National External Audit review Center (NEAR). Accordingly, we received feedback from
     NEAR as no findings to be resolved by HHS. Attached please find the feedback in annex 9.
     EPHA will ensure the submission of all future audit reports to NEAR as per the terms and conditions
     of the CoAg.


   B) RESPONSE TO THE PROGRAM MANAGEMENT FINDINGS
1. Some Cooperative Agreement Goals Not Repo,r ted or Partially Supported
  1.1 Five partially supported accomplishments
   EPHA has taken actions to ensure correct and proper supporting documents for reporting in
   the future. For this purpose EPHA has recently developed a Monitoring and Evaluation
   Manual by hiring an independent consultant with effective date from March 2014 onwards
   (Annex 11 &13).




                                                                                                           18
      restricted us to visit Dabat site as planned. We attached the supervision report as evidence
      in Annex 12. EPHA has been conducting periodic site visits and review meetings with partners
      and program focal persons to re-planning and ensuring the performance of activities as
      planned.
      EPHA also recognized that a statistical disparity of DHSS events registration was created. It
      was due to human error introduced at the stage of report compilation. We take the
      advantages of these recommendations and EPHA shall give due attention to establish and
      strengthen efficient monitoring and documentation databases for all planned and performed
      activities of each project.
      The Ethiopian Public Health Association has sub-contracted to the Save Your Generation
      (locally supported organization), activities related to HIV prevention in school youths of Addis
      Ababa. During OIG period, this sub-granted organization submitted documents including
      attendance sheets related to the training for peer leaders, peer education for youths and
      social networking sessions. EPHA understands as lessons learned all activity outputs to be
      monitored, timely reported, and documented by establishing its M&E database system.
     1.2 Three unsupported accomplishments:
     Response:-The Ethiopian Public Health Association sub-contracted these activities for
     consultants to conduct assessments of men who have sex with men (MSM) in Addis Ababa
     and the recruitment of personnel was processed through the consultants. Activities including
     purchasing of equipment and furnishing the study center re·lated to surveillance of HIV,
     Syphilis, and risk behaviors among men who have sex with men in Addis Ababa were
     purchased through EPHA during year three of the CoAG. However, the program activities (data
     collection and analysis) originally planned in the audit period from September 30, 2011 to
     September 29, 2012 were not accomplished due to the very sensitive nature of the study
     assessment, so an adjustment plan was made to be shifted in subsequent year and well
     performed in the year after the period selected for audit.


2.       EPHA Submitted Its Report Late
     2.1 EPHA did not submit its progress report timely and no proper documentation system
     Response: We agree this is important. EPHA has developed reporting policies and procedures
 that clearly indicated in the M&E manual to be implemented in the association. EPHA has
     greatly improved its reporting requirements for programmatic administration. The Monitoring
     and Evaluation unit, under tine supervision of Executive Director, keeps timetables and
     schedules for all reports and reminders are sent to individual programs as required. EPHA now
 submits reports within the stated deadlines.


3. EPHA did not have adequate financial and programmatic policies and procedures
 Response: Although EPHA has its own financial manual, we recognized that some procedures
 indicated in the manual should be revised and aligned with Ethiopian government policies and
                                                                           to revise its program and
                                                                            . tions. To mention few,
                                                                                           5I Page




                                                                                                         19
    EPHA has performed a flat per diem rate of international travels as we provided and indicted
    in the existing EPHA financial manual but should be revised as per the recommendations
    provided. EPHA has been working to develop a standardized reporting policies and procedures
    as well as proper documentations in accordance with its M&E manual to accommodate all
    grants within the association. The manual is attached in Annex 11 &13. EPHA also developed
    reporting format for the purpose of producing standardized information as attached in Annex
    14.



   CONCLUSION

   The Ethiopian Public Health Association sincerely appreciates CDC for sending the Draft Auditor
   Report. The OIG Auditors' visit benefited EPHA so that we had an opportunity to pay attention
   to the detailed requirements and expectations of your office in managing PEPFAR funds and
   meeting program goals. The in-depth audit of our accounting, internal control and
   programmatic systems has helped the Association to improving the overall performances in the
   near future. We undertake to continue improving these systems in this dynamic environment.
   We have taken all the recommendation s seriously and applying them to manage the PEPFAR
   funds more efficiently to benefit the intended beneficiaries and be in compliance with U.S.
   government regulations. We believe that our explanations would be sufficient to consolidate
   your final conclusion for this audit.

   Sincerely,

    ~~s~
                 ')f,flf'i(J)o >ti'i-t 

           Hailegnaw Eshete(MS,MPH) 

   CC: 	         'f'c; JSU.h.,.c
                ExKutiV@ Director
   Jeffry Hanson
   Country Director
   Centers for Disease Control and Prevention Ethiopia
   Priscilla Patin, OIG
   Centers for Disease Control and Prevention Liaison




                                                                                       6I Page




Audit ofthe Ethiopian Public Health Association PEPFAR Funds (A-04-13-04016)                         20
